                     Closeout of M90030007

                 1990, the Vice President for Research and




                                                        __
                  at                           informed us that an
                  a %ma1    investigation into allegations of
intentional data modification by
                                                              -#
               a postdoctoral a s s o c i a t K n the Department
                and             of the College of Engineering.
The subject received support from an NSF award for
research
It was alleged that the postdoctoral associate improperly and
intentionally adjusted his research apparatus on three occasions
to yield false results which were of higher value than previously
recorded by any other scientist in his subfield of research.
In July 1990, we received the Dean of the University Faculty's
2-page final investigative report.        On the basis of the
investigative committee's report as transmitted through the Dean
of Engineering, the Dean of Faculty concluded that the evidence
did not support a finding of academic misconduct.      The 2-page
report did not contain sufficient information for OIG to assess
the accuracy and completeness of the investigation or whether the
investigating entity followed usual and reasonable procedures.
We therefore asked for copies of the inquiry report, the full
report of the faculty investigative committee, and the summary
report prepared by the Dean of the College of Engineering based
on the faculty investigative committee's report. After reviewing
these reports, we still had difficulty in reaching the same
conclusion as the Dean of University Faculty.
The faculty investigative committee concluded that despite the
lack of "direct and incontrovertible evidence,"        a rather
complicated web of circumstantial evidence lead the Committee to
conclude that the subject did engage in academic misconduct as
understood in the applicable a     n     d NSF policies.     The
committee's report did not specify the circumstantial evidence
that it found to be convincing, but the committee presumably was
influenced by its assessment of the relative credibility of
witnesses.   The committee's deliberations were at the least
complicated by the fact that the subject initially signed a
"confession" and then retracted it after asserting that it had
been coerced.   According to the material available to us, the
committee tried not to give any weight to the retracted
"confession" in reaching its conclusions.     Nonetheless, in a
separate letter transmitting their investigative report to the
Dean of Engineering, the faculty committee acknowledged that the
existence of the "confession" made the investigation
significantly more difficult.
Based on its analysis of evidence and the equities, the faculty
committee proposed that a letter of reprimand be sent to the
subject.   In addition, the committee recommended that the
subject's appointment as a postdoctoral associate end at the
expiration of his current appointment -- about 4 months after the
conclusion of committee's investigation.
The investigative committee's report was reviewed first by the
Dean of the College of Engineering and then by the Dean of the
Faculty, who concurred in the recommendations of Dean of the
College of Engineering. The Dean of the College of Engineering
and the Dean of University Faculty reversed the faculty
investigative committee in part by concluding that there was
insufficient evidence to support a finding of misconduct.
Accordingly, a letter of reprimand was not issued. Nonetheless,
the Deans both concluded that the subject's "failure to properly
record. his actions in the laboratory log book     ...   deviated
from   acceptable   experimental procedures and raised serious
doubts about his conduct in these matters."     The sanction, if
any, for this deviation from accepted experimental practice is
not stated in the reports we have nor is it identified as
misconduct.   Nonetheless, the Deans both decided to let the
subject's appointment as a postdoctoral associate expire.
Our review of the material provided to us by the University
raised issues for us concerning the consistency and completeness
of the University's investigation as well as whether the
procedures employed by the University were reasonable.      Among
other items, we believed it was necessary for us to evaluate: (1)
whether the admissions obtained from the subject were obtained in
a coercive manner as alleged by the subject;      (2) whether the
University was correct in reversing the investigative
committee's finding of misconduct; (3) why the investigative
committee did not explain the circumstantial evidence that it
found to be convincing; (4) why the report of the Dean of
University Faculty addresses only two of the three alleged
incidents of data tampering; (5) the absence of clear and
explicit allegations for the three separate incidents of "data
tampering;" and (6) the failure of the investigative committee to
explain clearly the method it used to determine that there was
data tampering in two instances where there were no witnesses or
records for such alleged tampering.
In the course of evaluating the university's investigative
report, we learned that the postdoctoral associate had left the
university and returned to his country of origin. Under these
circumstances and considering our limited resources, we are
closing this case with a letter to the institution expressing
our concerns about its investigation.



O K : 5Qf-S
cc: Inspector General
